Inspection Report: Review of Education Credentials
Inspection Report No. OIG-INS-28-03-05
Review of Education Credentials
UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General
Memorandum
September 26, 2003
To: Richard Siegel, Associate General Counsel
Catherine McCoy Director, Human Resources Branch
From: Jane E. Altenhofen
Inspector General
Subject: Inspection Report No. OIG-INS-28-03-05: Review of Education Credentials
We initiated this inspection in July 2003 to verify that Agency personnel completed the
highest college degree listed in their Official Personnel File (OPF) and to determine if
the degree was obtained at an accredited educational institution. We also reviewed the
Agency's training records to determine if the Agency funded training at nonaccredited
colleges or universities. We found that 441 of 454 employees completed the degree
requirements at an accredited United States college or university as indicated in their
OPF.
SCOPE
We reviewed the educational credentials of Agency personnel in positions other than
attorney and administrative law judge as of June 17, 2003. We excluded individuals in
attorney and administrative law judge positions from the universe of personnel because we
reviewed the legal credentials of personnel in those positions in OIG-INS-18-01-01: Review
of Bar Status. We also excluded student interns.
We collected information from OPFs, Human Resources' BRIO database, Security Branch
files, and, in some cases, directly from the individual employee. We reviewed the Office
of Personnel Management's (OPM) Qualification Standards for General Schedule Positions;
OPM's Handbook of Occupational Groups and Families; The Guide to Personnel Data Standards;
Office of Postsecondary Education, Department of Education, Web site's information
regarding regional institutional accrediting agencies; the Higher Learning Commission's
Directory of Accredited Institutions; and the American Bar Association's list of
accredited law schools. We also reviewed the Agency's Fiscal Year 2001 training records.
This review was done in accordance with the Quality Standards for Inspections issued by
the President's Council on Integrity and Efficiency.
BACKGROUND
An individual may qualify for a particular General Schedule (GS) grade level based upon
either experience or education. When qualifying based upon education, successful
completion of a 4 academic years leading to a bachelor's degree or a bachelor's degree
itself, at an accredited college or university, meets the GS-5 level requirement. A
bachelor's degree with superior academic achievement or education at the graduate level at
an accredited college or university is required for levels GS-7 through GS-11. A master's
or equivalent graduate degree is generally required for the GS-9 level. Equivalent
combinations of education and experience may qualify a person for a particular grade level
for which both education and experience are acceptable.
The purpose of accreditation is to ensure that the education provided by institutions
of higher education meets acceptable levels of quality. Although the U.S. Department of
Education does not accredit education institutions or programs, the Secretary of Education
is required to publish a list of nationally recognized accrediting agencies. These
accrediting agencies are private educational associations of regional or national scope
that have developed evaluation criteria and conduct peer evaluations to assess whether or
not those criteria are met. Educational institutions that request an accrediting agency's
evaluation and that meet the agency's criteria are accredited by that agency. The U.S.
Department of Education does not accredit institutions in foreign countries.
Individuals applying for a position with the Agency and employees competing for a merit
promotion are required to submit an application. The application may be in one of three
forms: OPM Optional Form (OF-612), Optional Application For Federal Employment; a resume;
or other written format. The three types of applications each require that the individual
list the colleges and universities attended with information regarding the major(s) and
type and date of degree - if no degree was awarded the individual should indicate the
credits earned. If hired, this information is then made part of the person's Official
Personnel file and is coded in Human Resources' BRIO database.
Once an individual is offered a position, he or she is required to submit a
Questionnaire for Public Trust Position, Standard Form 85P or Standard Form 86. These
forms also requires that the individual provide information regarding his or her
educational credentials. A background investigation of the individual is then conducted by
OPM.
The validity of educational credentials has recently been the subject of Congressional
interest. For the last 2 years, Senator Susan Collins, Chairman of the Senate Governmental
Affairs Committee, worked to expose problems with degrees from unaccredited colleges and
universities. The Chairman also requested that the General Accounting Office investigate
the use of such degrees to obtain positions and promotions in the Federal government work
force.
RESULTS
We verified the educational credentials for 454 employees who were coded in Human
Resources' BRIO database as having a college degree. For 36 employees we used a transcript
as the means to verify the educational credentials. For the remaining 418 employees, we
contacted the college or university to determine if the employee completed the degree
listed and when the degree was completed. In most cases, the college or university was
listed in the employee's OPF. If the name of the college or university was not listed in
the OPF, we attempted to obtain that information from the security files. In three
instances, we contacted the individual directly to obtain the information. Using this
process we were able to obtain degree information for all the employees. We also verified
that the college or university was accredited. The table below describes our results:
Employees
454
Employees who did not complete the degree requirements
2
Employees with degrees from colleges and universities not accredited
2
Employees who completed the degree after the date indicated in OPF
8
Employees with a degree from a foreign college or university
1
Employees with erroneous degree information
5
Colleges and universities accredited
243
We initiated investigations of 12 employees who either did not complete the highest
degree indicated in his or her OPF, completed the degree after the date indicated on their
application, or attended a non-accredited school. Of the two employees who attended
non-accredited universities, one employee claimed a Bachelor of Science and the other
claimed a Juris Doctor. Seven of the eight employees who stated on the application that
the degree had been awarded when in fact the degree had not yet been completed, claimed a
graduate degree when applying for a Labor Relations Examiner position.
During our review we discovered that several employees who had degree information in
their OPF were not properly coded in Human Resources' BRIO database as having the degree.
These individuals completed the degree after being employed by the Agency and then claimed
the degree when competing for a merit promotion. We also found four instances were it
appears that erroneous degree information was entered into Human Resources' BRIO database.
We reviewed the Agency's training records for Fiscal Year 2001. That review did not
disclose that the Agency paid for any courses at nonaccredited colleges or universities.
cc: Board
General Counsel